No. 20-444
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL ANDREW GARY
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES, via email and first-class mail, postage prepaid, this
16th day of February 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
11,808 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 16, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 16, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

SERVICE LIST: 20-444 – USA v. Michael Andrew Gary
JEFFREY L. FISHER
BRIAN H. FLETCHER
PAMELA S. KARLAN
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION CLINIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-7081
jlfisher@law.stanford.edu
KIMBERLY HARVEY ALBRO
OFFICE OF THE FEDERAL PUBLIC DEFENDER
1901 ASSEMBLY STREET
SUITE 200
COLUMBIA, SC 29201

